No. 20-_
INTHE

~upreme Qtourt of tbe mntteb ~tateS'
THE SHERWIN-WILLIAMS COMPANY,

Petitioner,
v.
COUNTY OF DELAWARE, PENNSYLVANIA; ET AL.,

Respondents.

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I certify that the Petition for a Writ of Certiorari in The Sherwin- Williams Co.
v. County of Delaware, No. 20-_, was served via overnight mail or electronic mail
on all parties required:
David S. Senoff
FIRST LAW STRATEGY GROUP

121 South Broad Street, Suite 300
Philadelphia, PA 19107
(215) 258-4777
dsenoff@firstlawstrategy.com
Counsel for Respondents
County of York
Attn: County Solicitor
28 E. Market Street, 2nd Floor
York, PA 17401

Erie County
Attn: County Solicitor
Erie County Courthouse
140 West Sixth Street, Room 114
Erie, PA 16501

Dr. Kyle W. Foust
Fiore Leone
Kathy Fatica
Carol J. Loll
Andre R. Horton
Carl Anderson, III
Scott R. Rastetter
Erie County Council
140 West Sixth Street, Room 114
Erie, PA 16501

Susan Byrnes
Doug Hoke
Chris Reilly
York County Board of
Commissioners
28 E. Market Street, 2nd Floor
York, PA 17401

I declare under penalty of perjury that the foregoing is true and correct.

Date: December 28, 2020

-2-

